                                          NATIONAL SCIENCE FOUNDATION
                                           OFFICE OF INSPECTOR GENERAL
                                             OFFICE OF INVESTIGATIONS

                                    CLOSEOUT MEMORANDUM

TO: AIGI       1   File Number: 194010001                                 I   Date: 12 March 2002

Subject: Closeout Memo                                                                Page 1 of 1


      There was no closeout written at the time this case was closed. The following information was
      extracted from the file in conformance with standard closeout documents.

      Our office was informed that the subject1admitted he had dumped several hundred pieces of NSF
      mail. The subject resigned in lieu of termination.

      Accordingly this case is closed.




                    Prepared by:                   Cleared by:

                   Agent:          Attorney:     Supervisor:     AIGI
   Name:



 Signature &
    date:
